Service List for No. 19-968 (Foundation for Moral Law Amicus Brief)
Counsel of Record for Petitioners
John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org
(616) 450-4235
Party name: Chike Uzuegbunam, et al.
Counsel of Record for Respondents
Andrew Alan Pinson
Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
apinson@law.ga.gov
404-651-9453
Party name: Stanley Preczewski, et al.

